Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice Programs, Bureau of Justice Assistance
	Police Hiring Supplement Grant
	to the San Diego Police Department, California
GR-90-99-012
March 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the San Diego Police Department (SDPD), California.  The purpose of the grant was to enhance community policing.  The SDPD was awarded a total of $1,000,000 to hire 14 new police officers under the Police Hiring Supplement (PHS) program.

	We reviewed the SDPD's compliance with six essential grant conditions.  We found the SDPD's practices for budgeting, hiring, meeting the local match, preparing reimbursement requests, and implementation of community policing to be acceptable.  However, we found weaknesses in the area identified below.

Several financial status reports were either not accurate or not timely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.